CASE NO. _________________

IN THE SUPREME COURT OF THE UNITED STATES
___________________________________________
CHEROSCO BREWER, Petitioner,
vs.
UNITED STATES OF AMERICA, Respondent.
___________________________________________
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the Sixth Circuit
___________________________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Timothy F. Sweeney (OH 0040027)*
MEMBER OF THE BAR OF THIS COURT
LAW OFFICE OF TIMOTHY FARRELL SWEENEY
The 820 Building, Suite 430
820 West Superior Ave.
Cleveland, Ohio 44113-1800
Phone: (216) 241-5003
Email: tim@timsweeneylaw.com
*Counsel of Record
Counsel for Petitioner Cherosco Brewer

INDEX TO APPENDIX
APPENDIX A
United States v. Brewer, No. 20-5943, 2021 U.S. App. LEXIS 17130
(6th Cir. June 7, 2021) ........................................................................................... Appx-001
APPENDIX B
United States v. Brewer, No. 3:17-cr-37-DJH, 2018 U.S. Dist. LEXIS 13873
(W.D. Ky. Jan. 29, 2018) (R. 66) .......................................................................... Appx-008
APPENDIX C
United States v. Brewer, No. 3:17-cr-37-DJH, Order Denying Reconsideration
(W.D. Ky. October 26, 2018) (R. 114) .................................................................. Appx-020
APPENDIX D
United States v. Brewer, No. 3:17-cr-37-DJH, Judgment of Conviction and
Sentence (W.D. Ky. August 4, 2020) (R. 242) ...................................................... Appx-029

1

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0278n.06
Case No. 20-5943
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
CHEROSCO BREWER,
Defendant-Appellant.

)
)
)
)
)
)
)
)

Jun 07, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
KENTUCKY

BEFORE: SUTTON, Chief Judge; McKEAGUE and DONALD, Circuit Judges.
SUTTON, Chief Judge. On consecutive nights, officers pulled over Cherosco Brewer
because his car had illegally tinted windows. Each time a drug dog alerted on his car, and each
time the officers found drugs and a gun. After the government brought drug-distribution and
firearm charges, Brewer moved to suppress the evidence from the traffic stops. The district court
denied the motion, and a jury convicted Brewer of the offenses. We affirm.
At roughly 1 a.m. on November 11, 2015, Louisville police officers stopped Brewer’s car
because the windows contained excessive tint. “All of the windows looked black,” the officers
observed, and they could not “see the shadow of anyone . . . in the car,” even under “light posts.”
R.43 at 11–12. Detectives Tyler Holland and Holly Hogan approached the car, and the passengers,
Brewer and a woman, lowered their windows when asked to roll them down. The officers saw a
towel draped over the dashboard, covering the interior lights. Holland asked Brewer to step out

EXHIBIT A
Appx-001

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 2

Case No. 20-5943, United States v. Brewer
of the car, frisked him for weapons, and retrieved his driver’s license. He went to the squad car to
check for warrants and write a ticket. Meanwhile, Hogan asked the passenger to step out of the
car, frisked her, obtained her information, asked her about any outstanding warrants, and ran the
license plate.
Several minutes later, other officers and a drug dog named “Diesel” arrived. While Hogan
waited on the license plate check and Holland began writing a citation—nine to ten minutes after
the officers initially stopped Brewer—Diesel alerted on the driver’s door. The officers found a
loaded handgun and individually packaged marijuana under the steering column of the car. They
arrested Brewer.
The next night around 11 p.m., a different officer, Detective Stewart, stopped a car with
pitch-black windows only to find Brewer, released on bond, in a different car. Stewart recognized
Brewer. He asked Brewer to step out of the car, frisked him, then went back to his squad car to
run Brewer’s information. While he did so, an officer helping with a traffic stop across the street
walked Diesel over and Diesel indicated at the driver’s door. This time the officers found baggies
of cocaine under the dashboard. On this occasion, it took about four minutes after the initial stop
to discover the drugs.
A federal grand jury indicted Brewer on firearm and drug-trafficking offenses. Brewer
moved to suppress the evidence from the traffic stops. After conducting a hearing, the district
court denied the motion. A jury convicted Brewer on all counts. He appeals the denial of his
motion to suppress and the jury’s verdict.
Motion to suppress.

The Fourth Amendment prohibits “unreasonable searches and

seizures.” U.S. Const. amend. IV. In reviewing a district court’s ruling on a motion to suppress

2

Appx-002

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 3

Case No. 20-5943, United States v. Brewer
after a hearing, we construe any uncertainties in the factual record in favor of the court’s decision.
United States v. Martin, 526 F.3d 926, 936 (6th Cir. 2008).
Brewer has no quarrel with the police officers’ authority to stop him each night for
excessive window tint, for which the record suggests not just reasonable suspicion but in fact
probable cause. See K.R.S. § 189.110. He trains his argument instead on whether the officers
unduly prolonged each stop.
When police stop a car, the ensuing interaction must suit the circumstances. Police officers,
generally speaking, may not prolong a traffic stop “beyond the time reasonably required to
complete the mission of issuing a ticket for the violation” and to “attend to related safety concerns.”
Rodriguez v. United States, 575 U.S. 348, 350–51, 354 (2015) (quotation omitted). As part of the
stop, officers may “check[] the driver’s license, determin[e] whether there are outstanding warrants
against the driver, and inspect[] the automobile’s registration and proof of insurance.” Id. at 355.
They also may order a car’s occupants to step out of the vehicle. Pennsylvania v. Mimms, 434
U.S. 106, 111 (1977). In the course of completing these tasks, officers may investigate matters
unrelated to the traffic stop when additional suspicion arises from the encounter. Rodriguez, 575
U.S. at 355.
Officers may frisk someone for weapons if they have reasonable suspicion that the person
is “armed and dangerous” and “a reasonably prudent man in the circumstances would be warranted
in the belief that his safety or that of others was in danger.” Terry v. Ohio, 392 U.S. 1, 27 (1968).
The quantum of suspicion, ever a function of the circumstances facing the officers, requires more
than a “hunch” but falls “considerably short” of a preponderance standard. United States v. Lyons,
687 F.3d 754, 763 (6th Cir. 2012) (quotation omitted).

3

Appx-003

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 4

Case No. 20-5943, United States v. Brewer
These stops did not violate the Fourth Amendment. As to the first stop, recall the situation
the officers faced. In the course of a late-night stop, they obtained Brewer and his passenger’s
identification, asked them each to step out of the car, frisked them for weapons, searched for
outstanding warrants against Brewer, and explained that process to each passenger. They also
began writing a citation and running the car’s tags. None of these acts unlawfully prolonged the
stop. Most indeed represent normal incidents to a traffic stop. Rodriguez, 575 U.S. at 355; Mimms,
434 U.S. at 111; Maryland v. Wilson, 519 U.S. 408, 415 (1997).
What about getting the passenger’s information and talking to her about outstanding
warrants? Questions “unrelated to the justification for the traffic stop” are not a problem “so long
as those inquiries do not measurably extend the duration of the stop.” Arizona v. Johnson, 555
U.S. 323, 333 (2009). Just so here. Officer Hogan questioned the passenger while Officer Holland
dealt with Brewer, and we do not see how Officer Hogan’s separate conversation delayed
Holland’s investigation or the stop as a whole.
As for the frisks, the officers reasonably suspected that Brewer and his passenger had guns.
Both officers knew from experience that people driving with excessively tinted windows often
have guns with them. Brewer and his passenger only cracked their windows, and both seemed
nervous. A towel covered the dashboard lights, making it difficult to see inside the car. In
countless traffic stops over their combined 12 years of service, neither officer had seen an effort
to conceal a car’s interior in this way. Add to the mix that the stop happened around 1 a.m. in a
“hot spot[]” for “violent crime,” and it is fair to conclude that the officers acted reasonably in
frisking the two individuals. R.47 at 6; see Lyons, 687 F.3d at 763.

4

Appx-004

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 5

Case No. 20-5943, United States v. Brewer
Brewer counters that the stop nonetheless took too long. But he does not point to any cases
holding that it is unreasonable as a matter of law to take up to ten minutes to process a stop in these
kinds of circumstances. That is hardly outside the norm for run-of-the-mine traffic stops.
He adds that the number of backup officers should have reduced the time needed. Perhaps,
and maybe indeed that happened. But it is hardly self-evident that the number of officers made
the stop unreasonable. Keep in mind that two officers dealt with each of the car’s occupants, and
the other officers handled the dog and supplied backup.
In the alternative, Brewer argues that the number of backup officers itself violated the
proscription that a Terry stop employ “the least intrusive means reasonably available.” Florida v.
Royer, 460 U.S. 491, 500 (1983). But backup officers by themselves do not make a stop
unreasonable, particularly when they do not infringe anybody’s liberty. No such infringement
occurred when it comes to their conduct.
Brewer also claims the district court clearly erred by relying on Holland’s testimony that
he checked for warrants against Brewer and began filling out a citation before Diesel alerted.
United States v. Lott, 954 F.3d 919, 922–24 (6th Cir. 2020). Brewer suspects Holland stalled until
Diesel arrived and claims the body cam proves it. But the video shows that, after Diesel alerted,
Holland ran Brewer’s information again and returned to completing the citation. The interaction
does not leave a “definite and firm conviction” that Holland unduly stalled when it comes to a stop
that still took less than ten minutes. Kerman v. Comm’r, 713 F.3d 849, 867 (6th Cir. 2013).
Brewer invokes a slew of cases, most of them unpublished and from outside the circuit,
which in his words “found reasonable suspicion” “lacking in cases presenting far greater
‘suspicion’” than the “circumstances relied upon here.” Appellant’s Br. 45 (quotation omitted).
But most of Brewer’s cases do not deal with Terry frisks, none deals with a novel effort at
5

Appx-005

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 6

Case No. 20-5943, United States v. Brewer
concealment that no officer had seen before, and none reveals a stop that the record indicates took
less than ten minutes.
Brewer does no better when it comes to challenging the second stop. The officer knew
Brewer had been found with a gun the night before in similar circumstances. That by itself justifies
the frisk. The rest of the stop consisted of the kinds of routine activities permitted by Rodriguez
and Mimms and took just four minutes.
Sufficiency of the evidence. To convict Brewer for drug distribution, the government had
to establish that Brewer knowingly possessed marijuana and cocaine with intent to distribute the
drugs. 18 U.S.C. § 841(a). Ample evidence supported the convictions. No one doubted that
Brewer possessed marijuana. Up for debate was whether he knowingly possessed the cocaine and
whether he possessed the drugs with intent to distribute them. As to possession of the cocaine, the
only difference between the marijuana and the cocaine was that the cocaine was found in a car
registered to someone else. That does not change the calculus due to the “other incriminating
evidence” linking Brewer to the drugs, namely that they were packaged for immediate sale and
accessible to Brewer from the driver’s seat in hiding places commonly used by drug dealers.
United States v. Arnold, 486 F.3d 177, 183 (6th Cir. 2007) (en banc) (quotation omitted). As an
expert testified, that same evidence—packaging for resale and hiding the drugs in a place often
used by drug dealers—closed any gap when it comes to the intent-to-distribute element for both
types of drug distribution. That the drug amounts were small in quantity makes no difference;
drug dealers often limit the amounts they carry to avoid detection. Like many drug dealers, Brewer
drove someone else’s car (usually a rental car), had tinted windows, multiple cell phones, large
amounts of cash, and a gun. On this record, “any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979).
6

Appx-006

Case: 20-5943

Document: 45-2

Filed: 06/07/2021

Page: 7

Case No. 20-5943, United States v. Brewer
As to the firearm conviction, the government needed to prove that Brewer possessed a gun
in furtherance of drug trafficking. 18 U.S.C. § 924(c). We consider (1) whether the gun was
strategically accessible, (2) whether the gun was loaded, (3) the type of weapon, (4) the legality of
its possession, (5) the type of drug activity, and (6) the time and circumstances under which the
firearm was found. United States v. Mackey, 265 F.3d 457, 462 (6th Cir. 2001). The loaded
handgun was easily accessible to Brewer in the driver’s seat, illegally possessed, found late at
night, and hidden in a car with drugs packaged for sale. That readily suffices to meet the modest
Jackson v. Virginia sufficiency standard.
We affirm.

7

Appx-007

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 1 of 12 PageID #: 508

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
UNITED STATES OF AMERICA,

Plaintiff,

v.

Criminal Action No. 3:17-cr-37-DJH

CHEROSCO BREWER,

Defendant.
* * * * *
MEMORANDUM OPINION AND ORDER

Defendant Cherosco Brewer is charged with being a convicted felon in possession of a
firearm; possessing marijuana and cocaine with intent to distribute them; and possessing a
firearm in furtherance of a drug-trafficking crime. (Docket No. 1, PageID # 1-3) The charges
arise out of two traffic stops by Louisville Metro Police Department officers on November 11
and 12, 2015. (D.N. 17, PageID # 38) Brewer has moved to suppress evidence seized by LMPD
during those stops (D.N. 26) and statements made by him during the November 11 stop (D.N.
33). The latter motion is unopposed. (See D.N. 43, PageID # 162) The Court held a lengthy
evidentiary hearing on the initial motion to suppress (see D.N. 42; D.N. 46; D.N. 49), and the
parties submitted post-hearing briefs.1

(D.N. 56; D.N. 57)

In addition to his motions to

suppress, Brewer has filed a motion to sever the felon-in-possession count or bifurcate the trial
(D.N. 38) and a motion to sever Counts 2 and 3 (D.N. 39). For the reasons discussed below, the
Court will deny the contested motion to suppress, grant the motion to bifurcate, and deny the
motion to sever Counts 2 and 3.
1

The parties were given ten days following the conclusion of the hearing within which to submit
supplemental briefs. (See D.N. 49) Prior to the expiration of that deadline, Brewer moved for a
seven-day extension (D.N. 55), and he filed his brief four days later (D.N. 57). Because the
motion was filed prior to expiration of the original deadline and the requested extension is short,
the Court will grant the motion for extension of time and deem Brewer’s brief timely filed.
1

EXHIBIT B
Appx-008

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 2 of 12 PageID #: 509

I.
On November 11, 2015, Brewer was pulled over by Detectives Holly Hogan and Tyler
Holland of LMPD’s Ninth Mobile Division. Hogan and Holland believed that the windows on
Brewer’s vehicle were excessively tinted; Hogan recalled that although the car passed under
several streetlights, “[a]ll of the windows looked black,” and no occupants were visible. (D.N.
43, PageID # 172; see id., PageID # 171, 222) When asked to roll down his window, Brewer
rolled it down only a small amount. (Id., PageID # 222-23) Once the interior of the car was
visible, the officers saw a towel covering the lights on the dashboard, which they construed as an
attempt to further conceal the inside of the car. (Id., PageID # 175, 223, 244) Holland perceived
Brewer to be “nervous about something” because “a carotid artery in [Brewer’s] neck
was . . . pulsating pretty fast.” (Id., PageID # 223) Hogan thought that Brewer’s passenger was
also nervous. (Id., PageID # 205) Other officers soon arrived on the scene, including Detective
Anthony James and his canine partner, Diesel, a Belgian Malinois trained to detect illegal
substances. While Hogan was checking the vehicle’s registration, Diesel conducted a sniff
around the outside of the vehicle and alerted at the front driver’s-side door. (D.N. 43, PageID #
180-81; see Joint Ex. 1, Hogan bodycam recording at 7:40-9:16; Gov’t Ex. 4, 11/11/15 James
bodycam recording at 1:02)

A subsequent sniff and search of the car’s interior revealed

marijuana packaged for sale and a handgun. (D.N. 43, PageID # 181)
The following night, Brewer was driving a different vehicle when he was pulled over by
another Ninth Mobile Division officer, Detective Chad Stewart, again for excessive window
tinting. (D.N. 47, PageID # 302-05) Stewart testified that although it was a “well-lit area,” when
Brewer passed him, he “couldn’t tell how many people were in the car”; he “couldn’t see
anything.” (Id., PageID # 303) Stewart further testified that “[e]ven with [his] headlights
shining into the vehicle, [he] couldn’t see inside the vehicle, which let [him] know that the
2

Appx-009

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 3 of 12 PageID #: 510

window tint [was] excessively dark.” (Id.) Detective James and Diesel were nearby and quickly
joined Stewart at the scene; while Stewart was running the vehicle’s tags and Brewer’s warrant
status, Diesel alerted on the exterior of the car. (D.N. 47, PageID # 307-08, 327-28; Gov’t Ex. 4,
11/12/15 James bodycam recording at 2:31; Stewart bodycam recording at 4:10-4:55) Officers
searched inside the car and found cocaine packaged for sale. (Gov’t Ex. 4, Stewart bodycam
recording at 5:59-8:00)
In connection with the November 11 stop, Brewer was charged with possessing a firearm
as a convicted felon (Count 1), possessing marijuana with intent to distribute it (Count 2), and
possessing a firearm in furtherance of a drug-trafficking crime (Count 3). (D.N. 1, PageID # 1-2)
Count 4 of the Indictment arises out of the November 12 stop and alleges possession with intent
to distribute cocaine. (Id., PageID # 3) Brewer seeks to suppress any evidence seized during
either stop. (D.N. 26) He also asks the Court to hold three separate trials in this matter: one for
the felon-in-possession charge, one for the other two counts arising out of the November 11 stop,
and one for the November 12 cocaine charge. (D.N. 38; D.N. 39) Brewer’s arguments in
support of these motions are largely unpersuasive.
II.
A.

Motions to Suppress
The United States has conceded that statements made by Brewer during the November 11

stop should be suppressed. (D.N. 43, PageID # 162; see D.N. 33 (motion to suppress statements
based on Miranda violation))

For purposes of Brewer’s remaining motion, the pertinent

questions are (1) whether there was reasonable suspicion for the November 11 and 12 stops and
(2) whether the canine sniff impermissibly extended the November 11 stop. (See D.N. 26,
PageID # 109; D.N. 57)

3

Appx-010

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 4 of 12 PageID #: 511

1.

Reasonable Suspicion

Brewer contends that the LMPD officers lacked reasonable suspicion to stop him on
either November 11 or November 12, 2015. The overall thrust of his argument is that excessive
window tinting was not the true reason he was pulled over on those dates. (See, e.g., D.N. 57,
PageID # 417) But the reason behind the stops does not matter for Fourth Amendment purposes;
it is well established that “[a] police officer may effect a traffic stop of any motorist for any
traffic infraction, even if the officer’s true motive is to detect more extensive criminal conduct.”
United States v. Garrido, 467 F.3d 971, 977 (6th Cir. 2006) (quoting United States v. Townsend,
305 F.3d 537, 541 (6th Cir. 2001)). In other words, “[t]he subjective intent of the officer making
the stop is irrelevant in determining whether the stop violated the defendant’s Fourth
Amendment rights.” United States v. Collazo, 818 F.3d 247, 253 (6th Cir. 2016) (quoting Whren
v. United States, 517 U.S. 806, 813 (1996)). Brewer does not deny that his window tinting
exceeded—or at minimum, appeared to exceed—legal limits, and as discussed below, the
evidence confirms that the windows were extremely dark. Thus, to the extent he attacks the
officers’ credibility to establish that the stop was for a reason other than excessive window
tinting, his argument is not well taken. (See D.N. 57, PageID # 415-17)
A police officer may lawfully stop a motorist based on reasonable suspicion of an
ongoing crime. Collazo, 818 F.3d at 253 (citing United States v. Blair, 524 F.3d 740, 748 (6th
Cir. 2016)). Reasonable suspicion of illegal window tinting may be provided by an officer’s
experience and observations.2 See United States v. Shank, 543 F.3d 309, 313 (6th Cir. 2008)
2

Brewer complains that LMPD officers lack objective standards for measuring whether window
tinting is excessive. (D.N. 57, PageID # 416, 420-21) In particular, he faults LMPD for failing
to provide its officers with tint-measuring wands. (Id., PageID # 416, 420) However, a “tint
meter” is used to confirm a violation after a vehicle is stopped, not to establish reasonable
suspicion for a stop. See, e.g., Shank, 543 F.3d at 312 (while vehicle was stopped, one officer
“was using a ‘tint meter’ to more specifically measure the vehicle’s windows in support of the
4

Appx-011

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 5 of 12 PageID #: 512

(noting officers’ “substantial prior experience enforcing this traffic regulation” and agreeing with
district court that reasonable suspicion for stop existed “[d]ue to the officers’ familiarity with
window tinting and their estimate that the [defendant’s] vehicle was tinted substantially darker
than permitted by law”); see also United States v. Moreno, 43 F. App’x 760, 765 (6th Cir. 2002)
(finding reasonable suspicion in light of “undisputed proof that the defendant’s van’s side
windows were tinted to some optically discernible degree, which Officer Valentine had adjudged
to appear violative of a controlling legal standard”).
Detectives Hogan and Stewart testified that based on their experience, they believed
Brewer’s windows to be excessively tinted. (See D.N. 43, PageID # 173, 176; D.N. 47, PageID
# 304-05) Specifically, both detectives testified that they recognize illegal tinting when the
silhouettes of persons inside the vehicle are not visible, and that Brewer’s windows were tinted
to that extent. (See D.N. 43, PageID # 171-73, 195-96; D.N. 47, PageID # 302-05) The
bodycam recordings confirm that each vehicle’s windows were so dark that Brewer (and, on
November 11, his passenger) could not be seen inside, even when headlights and streetlights
were shining on the car. As the United States observes, “the videos also show the police officers
approaching cautiously based on the inability to see who or what is inside the vehicle as they
approach.”3 (D.N. 56, PageID # 408) Based on the officers’ testimony and the video evidence,
the Court finds that on both November 11 and November 12, 2015, the decision to stop Brewer
was supported by reasonable suspicion that he was in violation of Kentucky’s law prohibiting
excessive window tinting. See Ky. Rev. Stat. § 189.110(9).
ticket [the other officer] was writing.” Likewise, Detective Stewart’s inability to determine a
window’s tinting percentage by sight is not significant. (See D.N. 47, PageID # 304; D.N. 57,
PageID # 420-21 (challenging Stewart’s credibility on ground that he could only tell tint
percentages from looking at boxes when he worked in a tint shop))
3
Holland testified that “the tint was so dark that [he] . . . stood at [his] door frame for a second”
for safety reasons until Brewer rolled down his window. (D.N. 43, PageID # 222; see id.,
PageID # 223-24)
5

Appx-012

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 6 of 12 PageID #: 513

2.

Canine Sniff

Even if the stops were initially supported by reasonable suspicion, the officers must have
reasonably suspected “more extensive criminal conduct” in order to lawfully detain Brewer
beyond the time necessary to issue a citation for excessive window tinting. Samuels, 443 F.
App’x at 159 (quoting United States v. Townsend, 305 F.3d 537, 541 (6th Cir. 2002)). Thus,
although “the use of a well-trained narcotics-detection dog . . . during a lawful traffic stop[]
generally does not implicate legitimate privacy interests,” Illinois v. Caballes, 543 U.S. 405, 409
(2005), a stop may not be extended for a canine sniff “absent the reasonable suspicion ordinarily
demanded to justify detaining an individual.” Rodriguez v. United States, 135 S. Ct. 1609, 1615
(2015).
Brewer maintains that the November 11 stop was impermissibly extended by Diesel’s
sniff because investigation of the window-tinting violation was complete once Detective Hogan
made contact with Brewer’s passenger. (D.N. 57, PageID # 418) Brewer misrepresents Hogan’s
testimony on this point, however. He quotes Hogan as stating, “It was of the window tint” in
response to the question of whether her investigation of the window-tinting violation was
complete at the time she began speaking to Brewer’s passenger. (Id., PageID # 418 (purportedly
quoting D.N. 43, PageID # 196-97)) In fact, the exchange was as follows:
Q.

And at that point was your investigation of the window tint concluded?

A.

It was—of the window tinting?

Q.

Yes.

A.

It was still ongoing.

(D.N. 43, PageID # 197 (emphasis added))
Hogan ultimately agreed that she had “addressed” (i.e., confirmed) the window-tint issue
“on contact.” (Id.; see id., PageID # 216-17) But a traffic stop typically—and properly—entails
6

Appx-013

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 7 of 12 PageID #: 514

tasks such as “checking the driver’s license, determining whether there are outstanding warrants
against the driver, and inspecting the automobile’s registration and proof of insurance.”
Rodriguez, 135 S. Ct. at 1615 (citing Delaware v. Prouse, 440 U.S. 648, 658-60 (1979)).
Several officers testified that such inquiries are a normal part of any LMPD traffic stop. (See
D.N. 43, PageID # 226-27; D.N. 47, PageID # 277, 308-09) Hogan had not yet completed these
tasks when she approached Brewer’s passenger, and thus “the purpose of the initial stop had not
ended,” even if she had already confirmed the window-tint violation. Samuels, 443 F. App’x at
160. While Hogan was waiting to hear the results of the registration check and Holland was
filling out a citation for excessive window tinting, Diesel indicated that there were drugs in the
vehicle. (D.N. 43, PageID # 180-81, 227; see Joint Ex. 1, Hogan bodycam recording at 7:409:16; Gov’t Ex. 4, 11/11/15 James bodycam recording at 1:02) The canine sniff thus did not
extend the stop.4 And because “[a]n alert to the presence of drugs by a properly trained narcotics
detection dog is sufficient to establish probable cause to search a vehicle,” United States v.
Sharp, 689 F.3d 616, 618 (6th Cir. 2012), the subsequent search was likewise lawful.5
Finally, the Court rejects Brewer’s argument that the Ninth Mobile Division operates as
an unlawful “roaming roadblock”—a concept that, as far as the Court can tell, does not exist in
Fourth Amendment jurisprudence—because a drug-sniffing dog is present for most traffic stops.
(See D.N. 57, PageID # 421-22) Brewer cites a single case, City of Indianapolis v. Edmond, 531
4

The Court notes that the officers would have had reasonable suspicion to extend the stop for a
canine sniff in any event. Hogan and Holland viewed the towel over the vehicle’s interior lights
as an extreme attempt to conceal Brewer’s identity; Brewer’s failure to roll the window all the
way down also led the officers to believe that he was hiding something illegal. (D.N. 43, PageID
# 175-76, 203, 205, 223-24, 228) In addition, while not dispositive, the fact that Brewer seemed
exceptionally nervous during the stop (id., PageID # 205, 223-24) also supports a finding of
reasonable suspicion. See United States v. Pacheco, 841 F.3d 384, 393 (6th Cir. 2016) (citing
Illinois v. Wardlaw, 528 U.S. 119, 124 (2000); United States v. Wilson, 506 F.3d 488, 495-96
(6th Cir. 1995)). In short, there was reasonable suspicion for the canine sniff regardless of
whether the window-tinting violation had already been resolved.
5
Brewer does not challenge Diesel’s training or reliability.
7

Appx-014

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 8 of 12 PageID #: 515

U.S. 32 (2000), in support of this argument. In Edmond, the Supreme Court held that police
checkpoints whose “primary purpose . . . [was] ultimately indistinguishable from the general
interest in crime control” violated the Fourth Amendment. Id. at 48. But the Edmond Court was
concerned with stops conducted “in the absence of individualized suspicion of wrongdoing.” Id.
at 37. As explained above, the LMPD officers had reasonable suspicion to stop Brewer on
November 11 and 12, 2015.

See supra Part II.A.1.

Moreover, Brewer’s own argument

recognizes that the Ninth Mobile Division’s stops are not “suspicionless,” id. at 47: he asserts
that “[a]nyone traveling within the perimeter of the Ninth Mobile is subject to likely stops and
searches for any minor infraction.” (D.N. 57, PageID # 422 (emphasis added) (arguing that
“failure to have a seatbelt with a visible shoulder strap, having insufficient illumination on [a]
license plate, failing to signal a lane change or turn from an alley, and any other number of trivial
violations of the numerous traffic regulations” could result in a stop)) Again, the officers’ actual
motivations for stopping Brewer are irrelevant, and the reasonable-suspicion standard applies to
any “ongoing [traffic] violation, no matter how minor.” Gregory v. Burnett, 577 F. App’x 512,
516 (6th Cir. 2014) (citing United States v. Simpson, 520 F.3d 531, 540-41 (6th Cir. 2008)); see
Whren, 517 U.S. at 813; Garrido, 467 F.3d at 977, 979. Thus, the fact that the Ninth Mobile’s
overarching purpose is to reduce violent crime does not render its traffic stops unconstitutional.
B.

Motion to Sever Felon-in-Possession Count
Brewer argues that it would be “unduly prejudicial” for the jury to be made aware of his

status as a convicted felon during trial of the other charges. (D.N. 38, PageID # 145) He
therefore seeks a separate trial on Count 1 of the Indictment. In the alternative, he asks that the
trial be bifurcated. (Id.) The United States opposes severance or bifurcation, arguing that either
measure would be inefficient and unnecessary. (D.N. 41)

8

Appx-015

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 9 of 12 PageID #: 516

Federal Rule of Criminal Procedure 14(a) provides that “[i]f the joinder of offenses or
defendants in an indictment . . . appears to prejudice a defendant or the government, the court
may order separate trials of counts . . . or provide any other relief that justice requires.” Here, as
in previous cases before this Court, separating the trial of the felon-in-possession count from that
of the drug-trafficking charges “would be only a minor burden on the public. It would not take
much time to present the evidence of the felon in possession count to the same jury after they
reach a verdict on the other counts.” United States v. Robinson, No. 3:15-CR-96-TBR, 2016
U.S. Dist. LEXIS 88637, at *4-*5 (W.D. Ky. July 8, 2016). Meanwhile, there is “real possible
prejudice in the jury knowing that [Brewer] is a convicted felon.” Id. at *5. The Court thus
concludes that bifurcation is appropriate, and Brewer’s motion will be granted insofar as it seeks
a bifurcated trial. (See D.N. 38, PageID # 145)
C.

Motion to Sever Counts 2 and 3
Brewer also seeks to sever the drug and firearm charges arising out of the November 11

stop from the drug charge arising out of the November 12 stop. (D.N. 39) He argues that there
are no facts alleged in the indictment connecting the November 11 offenses to the November 12
offense and that trying the counts together would result in a prejudicial “spillover effect.” (Id.,
PageID # 149; see id., PageID # 148-50)

The United States maintains that joinder was

appropriate and that separate trials are unwarranted. (D.N. 41)
Pursuant to Federal Rule of Criminal Procedure 8(a),
[t]he indictment or information may charge a defendant in separate counts with 2
or more offenses if the offenses charged—whether felonies or misdemeanors or
both—are of the same or similar character, or are based on the same act or
transaction, or are connected with or constitute parts of a common scheme or
plan.
Fed. R. Crim. P. 8(a). Thus, the test for joinder is not whether offenses are related or have
overlapping facts, as Brewer suggests. (See D.N. 39, PageID # 148-49) Rather, “joinder of
9

Appx-016

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 10 of 12 PageID #: 517

offenses that are ‘of the same or similar character’ but unrelated . . . is explicitly permitted under
Rule 8(a).” United States v. Chavis, 296 F.2d 450, 460-61 (6th Cir. 2002) (quoting Fed. R. Crim.
P. 8(a)). Brewer’s alleged offenses are unquestionably “of the same or similar character” and
arguably “constitute parts of a common scheme or plan,” namely a scheme or plan to sell drugs.
Cf. United States v. McClellan, No. 93-4084, 1994 U.S. App. LEXIS 30790, at *8-*11 (6th Cir.
1994) (finding no misjoinder under Rule 8(a) where indictment charged drug-trafficking and
firearm offenses arising out of three separate incidents over a period of one year in which police
found drugs and firearms in defendant’s car). Moreover, consolidation of the offenses for trial
serves the interest of judicial efficiency, as even in a separate trial, the United States could offer
evidence of similar incidents for any purpose permissible under Federal Rule of Evidence
404(b)(2) (e.g., to show Brewer’s knowledge or intent). Cf. United States v. Jacobs, 244 F.3d
503, 507 (6th Cir. 2001). Any potential prejudice from trying the offenses together can be
minimized by a limiting instruction. See id. In sum, severance under Rule 8 is not warranted.
Nor has Brewer shown that he is entitled to relief under Rule 14. (See D.N. 39, PageID #
149 (“If the Court decides that the Cou[n]ts are properly joined, then Mr. Brewer asks for a Rule
14 severance of the Counts.”)) As discussed above, Rule 14 authorizes severance or “any other
relief that justice requires” where “the joinder of offenses or defendants in an
indictment . . . appears to prejudice a defendant or the government.” Fed. R. Crim. P. 14(a).
Brewer cites United States v. Soto, 794 F.3d 635 (6th Cir. 2015), for the factors used to
determine whether joinder is prejudicial, such as “whether spillover evidence would incite or
arouse the jury to convict on the remaining counts, whether the evidence was intertwined, the
similarities and differences between the evidence, the strength of the government’s case, and the
ability of the jury to separate the evidence.” Id. at 656-57 (quoting United States v. Dale, 429 F.
App’x 576, 579 (6th Cir. 2011)). The Soto panel also noted, however, that a defendant must
10

Appx-017

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 11 of 12 PageID #: 518

“offer more than conclusory statements to show that the joinder prejudiced his defense.” Id. at
657 (citing United States v. Hang Le-Thy Tran, 433 F.3d 472, 478 (6th Cir. 2006)). Here,
Brewer merely asserts that he “will be prejudiced by a spillover effect” because “[t]he jury will
believe that each of the drug counts makes the other count more likely to have occurred.” (D.N.
39, PageID # 149) But “absent a showing of substantial prejudice, spillover of evidence from
one [count] to another does not require severance.”

Hang Le-Thy Tran, 433 F.3d at 478

(alteration in original) (quoting United States v. Johnson, 763 F.2d 773, 777 (6th Cir. 1985)).
Brewer’s conclusory assertions do not establish that he would be substantially prejudiced by a
consolidated trial.
III.
For the reasons set forth above, it is hereby
ORDERED as follows:
(1)

Brewer’s motion to suppress evidence seized during the November 11, 2015 and

November 12, 2015 traffic stops (D.N. 26) is DENIED.
(2)

Brewer’s unopposed motion to suppress statements made during the November 11

stop (D.N. 33) is GRANTED.
(3)

Brewer’s motion to sever the felon-in-possession count or for bifurcated trial

(D.N. 38) is GRANTED to the extent it seeks a bifurcated trial. Count 1 of the Indictment,
which charges possession of a firearm by a convicted felon, shall be tried before the same jury
immediately following the return of a verdict on Counts 2-4.
(4)

Brewer’s motion to sever Counts 2 and 3 (D.N. 39) is DENIED.

(5)

Brewer’s motion for extension of time to file his post-hearing brief (D.N. 55) is

GRANTED.

11

Appx-018

Case 3:17-cr-00037-DJH Document 66 Filed 01/29/18 Page 12 of 12 PageID #: 519

A pretrial conference will be set by subsequent order.
January 29, 2018

David J. Hale, Judge
United States District Court

12

Appx-019

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 1 of 9 PageID #: 749

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
UNITED STATES OF AMERICA,

Plaintiff,

v.

Criminal Action No. 3:17-cr-37-DJH

CHEROSCO BREWER,

Defendant.
* * * * *
ORDER

Defendant Cherosco Brewer has filed a motion to reconsider the Court’s prior
suppression ruling and a motion to dismiss the indictment. (Docket Nos. 93, 94)1 Brewer, who
is charged with various firearm and drug-trafficking offenses, argues that the indictment in this
matter is the result of selective and vindictive prosecution and that marijuana and a handgun
seized during a November 11, 2015 traffic stop should be excluded from evidence. For the
reasons discussed below, both motions will be denied.
I.
The Court previously summarized the facts of this case as follows:
On November 11, 2015, Brewer was pulled over by Detectives Holly
Hogan and Tyler Holland of [Louisville Metro Police Department]’s Ninth
Mobile Division. Hogan and Holland believed that the windows on Brewer’s
vehicle were excessively tinted; Hogan recalled that although the car passed under
several streetlights, “[a]ll of the windows looked black,” and no occupants were
visible. (D.N. 43, PageID # 172; see id., PageID # 171, 222) When asked to roll
down his window, Brewer rolled it down only a small amount. (Id., PageID #
222-23) Once the interior of the car was visible, the officers saw a towel covering
the lights on the dashboard, which they construed as an attempt to further conceal
the inside of the car. (Id., PageID # 175, 223, 244) Holland perceived Brewer to
be “nervous about something” because “a carotid artery in [Brewer’s] neck
was . . . pulsating pretty fast.” (Id., PageID # 223) Hogan thought that Brewer’s
passenger was also nervous. (Id., PageID # 205) Other officers soon arrived on
1

Brewer filed an amended motion to reconsider after his initial motion was deemed deficient by
the Clerk of Court. (See D.N. 91; D.N. 92; D.N. 93) The initial motion will be denied as moot.
1

EXHIBIT C
Appx-020

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 2 of 9 PageID #: 750

the scene, including Detective Anthony James and his canine partner, Diesel, a
Belgian Malinois trained to detect illegal substances. While Hogan was checking
the vehicle’s registration, Diesel conducted a sniff around the outside of the
vehicle and alerted at the front driver’s-side door. (D.N. 43, PageID # 180-81; see
Joint Ex. 1, Hogan bodycam recording at 7:40-9:16; Gov’t Ex. 4, 11/11/15 James
bodycam recording at 1:02) A subsequent sniff and search of the car’s interior
revealed marijuana packaged for sale and a handgun. (D.N. 43, PageID # 181)
The following night, Brewer was driving a different vehicle when he was
pulled over by another Ninth Mobile Division officer, Detective Chad Stewart,
again for excessive window tinting. (D.N. 47, PageID # 302-05) Stewart testified
that although it was a “well-lit area,” when Brewer passed him, he “couldn’t tell
how many people were in the car”; he “couldn’t see anything.” (Id., PageID #
303) Stewart further testified that “[e]ven with [his] headlights shining into the
vehicle, [he] couldn’t see inside the vehicle, which let [him] know that the
window tint [was] excessively dark.” (Id.) Detective James and Diesel were
nearby and quickly joined Stewart at the scene; while Stewart was running the
vehicle’s tags and Brewer’s warrant status, Diesel alerted on the exterior of the
car. (D.N. 47, PageID # 307-08, 327-28; Gov’t Ex. 4, 11/12/15 James bodycam
recording at 2:31; Stewart bodycam recording at 4:10-4:55) Officers searched
inside the car and found cocaine packaged for sale. (Gov’t Ex. 4, Stewart
bodycam recording at 5:59-8:00)
In connection with the November 11 stop, Brewer was charged with
possessing a firearm as a convicted felon (Count 1), possessing marijuana with
intent to distribute it (Count 2), and possessing a firearm in furtherance of a drugtrafficking crime (Count 3). (D.N. 1, PageID # 1-2) Count 4 of the Indictment
arises out of the November 12 stop and alleges possession with intent to distribute
cocaine. (Id., PageID # 3)
(D.N. 66, PageID # 509-10) In its January 29, 2018 Memorandum Opinion and Order, the Court
denied Brewer’s motion to suppress evidence seized during the November 11 and 12 traffic
stops, rejecting Brewer’s arguments that the officers lacked reasonable suspicion to stop him and
that the November 11 stop was impermissibly extended by the canine sniff. (Id., PageID # 51114) Brewer now seeks reconsideration of that decision. (D.N. 93) He further maintains that the
entire indictment is the result of selective and vindictive prosecution and should therefore be
dismissed. (D.N. 94) The United States opposes both motions. (D.N. 101; D.N. 102)

2

Appx-021

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 3 of 9 PageID #: 751

II.
Because Brewer’s motion to dismiss would be dispositive if granted, the Court will
address it first.
A.

Motion to Dismiss Indictment
1.

Vindictive Prosecution

“A showing of vindictive prosecution requires (1) an exercise of a protected right; (2) a
prosecutorial stake in the exercise of that right; (3) unreasonableness of the prosecutor’s conduct;
and (4) the intent to punish the defendant for exercise of the protected right.” United States v.
Young, 847 F.3d 328, 361 (6th Cir. 2017) (quoting United States v. Meda, 812 F.3d 502, 510 (6th
Cir. 2015)). No hearing is required on a claim of vindictive prosecution unless the defendant
demonstrates “a realistic likelihood of vindictiveness” through the elements listed above. United
States v. Simpson, 226 F. App’x 556, 560 (6th Cir. 2007).
Brewer exercised a protected constitutional right by pleading not guilty to the state
charges. See, e.g., United States v. Goodwin, 457 U.S. 368, 377-84 (1982). But he fails to
explain how federal prosecutors would have a stake in avoiding trial at the state level. See
United States v. Wells, 211 F.3d 988, 1002 (6th Cir. 2000) (“To establish vindictive prosecution,
a defendant must show that the prosecutor has some personal ‘stake’ in deterring the exercise of
his constitutional rights . . . .” (citing United States v. Branham, 97 F.3d 835, 849-50 (6th Cir.
1996))). In any event, it is well established that the general prosecutorial stake in securing a
guilty plea does not support a claim of vindictive prosecution; the Supreme Court has “accepted
as constitutionally legitimate the simple reality that the prosecutor’s interest at the bargaining
table is to persuade the defendant to forgo his right to plead not guilty.” Bordenkircher v. Hayes,
434 U.S. 357, 364 (1978); see also Young, 847 F.3d at 362 (citing United States v. Suarez, 263

3

Appx-022

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 4 of 9 PageID #: 752

F.3d 468, 480 (6th Cir. 2001)). Brewer’s not-guilty plea to the state charges is thus irrelevant
here.
The Court assumes for present purposes that Brewer has “adequately asserted a protected
right in filing a civil rights suit.” Simpson, 226 F. App’x at 560; see id. at 560-61 (concluding
that defendant’s “right to bring a civil action under 42 U.S.C. § 1983 is a protected right, the
exercise of which may be the basis of a claim of prosecutorial vindictiveness”). He has not,
however, alleged any facts establishing “a prosecutorial stake in the exercise of that right.”
Young, 847 F.3d at 361. According to Brewer, he faces federal charges because certain LMPD
officers sought revenge against him for suing them. (See D.N. 94) Yet he cites no facts
suggesting that state prosecutors had a stake in his exercise of the right to file a § 1983 action,
much less anyone in the United States Attorney’s Office. Cf. Simpson, 226 F. App’x at 561
(finding prosecutorial-stake element not met where even if action by Assistant United States
Attorney whose father Simpson had sued “was undertaken for improper motives, the
Government’s decision to prosecute Simpson [was] not tainted by that motive because all
decisions actually relating to Simpson’s prosecution were made by individuals other than” the
potentially conflicted AUSA). Brewer likewise points to no evidence of unreasonableness on the
part of the prosecutors in this matter or an intent by those prosecutors to punish him.2 See
Young, 847 F.3d at 361. Thus, dismissal of the indictment on the basis of vindictive prosecution
is not warranted, and no hearing is necessary. See id.; Simpson, 226 F. App’x at 560.

2

As the United States observes, the federal investigation of Brewer was underway before he
filed his civil-rights lawsuit; Brewer was ultimately referred for federal prosecution by the
Bureau of Alcohol, Tobacco, Firearms and Explosives. (See D.N. 101, PageID # 685-86; D.N.
101-1; D.N. 110-2; D.N. 101-3; D.N. 101-5; Brewer v. Holland, No. 3:16-cv-00014-CRS, ECF
No. 1 (W.D. Ky. Jan. 7, 2016))
4

Appx-023

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 5 of 9 PageID #: 753

2.

Selective Prosecution

Brewer offers even less to support his claim of selective prosecution.
A prosecutor selectively prosecutes someone when three things occur. First, he
must single out a person belonging to an identifiable group, such as those of a
particular race or religion, or a group exercising constitutional rights, for
prosecution even though he has decided not to prosecute persons not belonging to
that group in similar situations. Second, he must initiate the prosecution with a
discriminatory purpose. Finally, the prosecution must have a discriminatory
purpose. Finally, the prosecution must have a discriminatory effect on the group
which the defendant belongs to.
United States v. Anderson, 923 F.2d 450, 453 (6th Cir. 1991) (internal citations omitted). Here,
Brewer asserts that he “was singled-out” for traffic stops in November 2015 and beyond “due to
his race as an African-American.” (D.N. 94, PageID # 658-59) He does not argue that his race
was a factor in the initiation of this federal prosecution, however, or that “similarly situated
individuals of a different race were not prosecuted.” United States v. Armstrong, 517 U.S. 456,
465 (1996).
Brewer does assert in passing that “because [he] exercised his constitutional rights, and
sued the police officers, he has been singled out for federal prosecution while others similarly
situated and committing the same acts have not.” (D.N. 94, PageID # 664) Yet he does not
claim to be part of “an identifiable group” of persons who filed civil-rights lawsuits against
police officers, nor does he claim that his prosecution was intended to, and did, result in a
discriminatory effect on that group.

Anderson, 923 F.2d at 453-54 (explaining distinction

between selective and vindictive prosecution). His claim of selective prosecution therefore fails.
B.

Motion to Reconsider Suppression Ruling
In deciding whether to reconsider its ruling on a motion to suppress, the Court weighs

several factors: whether the party seeking reconsideration has “provide[d] a reasonable
explanation for failing to present the evidence initially,” “the timeliness of the motion, the
5

Appx-024

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 6 of 9 PageID #: 754

character of the testimony, the effect of granting the motion, and whether the opposing party will
be prejudiced by reopening the hearing.” United States v. White, 455 F. App’x 647, 651 (6th Cir.
2012) (citing United States v. Carter, 374 F.3d 399, 405 (6th Cir. 2004), vacated on other
grounds, Carter v. United States, 543 U.S. 1111 (2005); United States v. Blankenship, 775 F.2d
735, 741 (6th Cir. 1985)). Although the United States does not contend that it would be
prejudiced if the motion were granted (see D.N. 102), the remaining factors weigh against
reconsideration. First, Brewer seeks to present new argument, not new evidence; his motion was
prompted by a change in counsel following the Court’s prior ruling. (See D.N. 93, PageID # 646
(claiming that new counsel discovered “misinterpretation of facts and misapplication of law” in
the Court’s decision)) This is not a compelling reason. See Carter, 374 F.3d at 406 (finding
mere change in defense counsel to be insufficient justification for failure to present evidence at
initial suppression hearing); see also White, 455 F. App’x at 651 (affirming denial of motion to
reconsider suppression ruling where evidence sought to be introduced by defendant “had not
been previously unavailable”).
Furthermore, the motion was not timely.

Following a status conference involving

Brewer’s new counsel on May 31, 2018, the Court reset certain pretrial deadlines, allowing the
parties twenty-one days from entry of the Memorandum of Conference and Order within which
to seek extension—“for good cause”—of other deadlines that had already passed, including the
deadline for motions to suppress. (D.N. 89, PageID # 623; see D.N. 16) Fifty-three days later,
Brewer filed his initial motion to reconsider, with no explanation for the delay and no attempt to
show the required good cause.

(D.N. 91)

The timeliness factor thus does not support

reconsideration. See White, 455 F. App’x at 651. Indeed, denial of the motion would be
warranted on this basis alone: “Good cause is a flexible standard heavily dependent on the facts

6

Appx-025

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 7 of 9 PageID #: 755

of the particular case as found and weighed by the district court in its equitable discretion. At a
minimum, it requires the party seeking a waiver to articulate some legitimate explanation for the
failure to timely file.” United States v. Walden, 625 F.3d 961, 965 (6th Cir. 2010) (finding no
abuse of discretion in district court’s denial of request to file untimely motion to suppress)
(citations omitted)); see Fed. R. Crim. P. 12(c) (providing that court may set deadline for pretrial
motions and that untimely motion may be considered upon showing of good cause).
Nor would reconsideration result in a different outcome. The Court previously found that
the November 11 traffic stop was not unreasonably delayed as a result of the canine sniff. (D.N.
66, PageID # 513-15 & n.4) Brewer argues that this conclusion was erroneous because the proof
shows that “the officers engaged in inordinate delay[ and] foot-dragging and virtually halted any
normal effort toward issuing a ticket, or any other appropriate task-based step associated with the
purpose for the initial stop.” (D.N. 93, PageID # 648 n.1) As an example of unnecessary delay,
he points to a gap of “over 2 ½ minutes” between the time Detective Hogan instructed his
passenger to stand at the rear of the car and the time she called in the vehicle information. (Id.,
PageID # 650)

Brewer acknowledges that Hogan was questioning the passenger about

outstanding warrants during this time but asserts that the Sixth Circuit has found a two-minute
delay for extraneous questions to be impermissible. (Id. n.2 (citing United States v. Stepp, 680
F.3d 651, 663 (6th Cir. 2012))) Neither the recording of the stop nor the case he cites supports
his argument.
In Stepp, the defendant argued that the traffic stop at issue “was unreasonably prolonged
by [the police officer’s] extraneous questioning.” 680 F.3d at 662. The Sixth Circuit explained
that “[a]n officer’s inquiries into matters unrelated to the justification for the traffic stop . . . do
not convert the encounter into something other than a lawful seizure, so long as those inquiries

7

Appx-026

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 8 of 9 PageID #: 756

do not measurably extend the duration of the stop.” Id. (alteration in original) (quoting United
States v. Everett, 601 F.3d 484, 490 (6th Cir. 2010)). “A traffic stop is not ‘measurably’
extended by extraneous questioning even when such questioning undeniably prolongs the stop to
a minimal degree.” Id. (citing Everett at 492). Ultimately, the court concluded in Stepp that “six
minutes of questioning measurably prolonged the traffic stop beyond its original purposes
because the topics covered more than just context-framing questions and the extraneous
questions lasted a not insubstantial amount of time.” Id. at 663. It reached this conclusion “by
considering the totality of the circumstances, which requires considering both the duration of the
extraneous questioning and its subject matter.” Id. at 662.
Here, the extraneous questions took less than half the time found unreasonable in Stepp.
See id. at 663. And although the questions were unrelated to the initial purpose of the stop, they
were not “related to the investigation of a secondary crime,” id. at 662, but instead asked as an
apparent courtesy: Hogan explained that if Brewer’s passenger had an outstanding warrant and
the information were radioed in, she would have to be taken to jail, whereas the officers would
have some discretion if Hogan checked the computer instead.

(See Hogan video at 4:21)

Nothing about this interaction suggests that Hogan abandoned or veered impermissibly from the
initial purpose of the traffic stop; rather, her “overall course of action during [the] traffic stop,
viewed objectively and in its totality, [was] reasonably directed toward the proper ends of the
stop.” Everett, 601 F.3d at 495 (noting that “the reasonable diligence standard does not ‘require
[an officer] to move at top speed’” (quoting United States v. Turvin, 517 F.3d 1097, 1102 (9th
Cir. 2008))). Moreover, the questioning did not last as long as Brewer contends: at 5:36 on the
bodycam recording, Hogan is seen adjusting her radio to call in the vehicle information, and the
call begins at 6:06. (See D.N. 93, PageID # 651 (asserting that “[t]he call on the vehicle was

8

Appx-027

Case 3:17-cr-00037-DJH Document 114 Filed 10/26/18 Page 9 of 9 PageID #: 757

made at 6:43”)) Thus, neither the duration nor the subject matter of the extraneous questioning
indicates that it unreasonably prolonged the traffic stop. See Stepp, 680 F.3d at 662. Finally, as
Brewer acknowledges (D.N. 93, PageID # 650), the canine officer alerted—giving rise to
probable cause—while Hogan was awaiting the results of the registration check. See United
States v. Sharp, 689 F.3d 616, 618 (6th Cir. 2012) (“An alert to the presence of drugs by a
properly trained narcotics detection dog is sufficient to establish probable cause to search a
vehicle.” (citing United States v. Diaz, 25 F.3d 392, 393-94 (6th Cir. 1994))) Because the traffic
stop was ongoing and the extension by Hogan was de minimis, no Fourth Amendment violation
occurred. See Rodriguez v. United States, 135 S. Ct. 1609, 1615 (2015); Stepp, 680 F.3d at 662.
In sum, Brewer has not demonstrated that reconsideration of the Court’s suppression ruling is
necessary or appropriate. See White, 455 F. App’x at 651.
III.
For the reasons set forth above, and the Court being otherwise sufficiently advised, it is
hereby
ORDERED as follows:
(1)

Brewer’s motion to dismiss the indictment (D.N. 94) is DENIED.

(2)

Brewer’s amended motion to reconsider (D.N. 93) is DENIED.

(3)

Brewer’s initial motion to reconsider (D.N. 91) is DENIED as moot.

October 25, 2018

David J. Hale, Judge
United States District Court

9

Appx-028

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 1 of 8 PageID #: 2333
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 1

United States District Court
Western District of Kentucky
LOUISVILLE DIVISION

UNITED STATES OF AMERICA
V.

Cherosco Brewer

THE DEFENDANT:
☐ Pursuant to plea agreement

JUDGMENT IN A CRIMINAL CASE

(For Offenses Committed On or After November 1, 1987)

Case Number: 3:17-CR-37-1-DJH
US Marshal No: 18898-033

Counsel for Defendant: Larry D. Simon, Appointed
Counsel for the United States: Corinne Keel, Asst. U.S. Atty
Court Reporter: Dena Legg

☐ Pleaded guilty to count(s)
☐ Pleaded nolo contendere to count(s)
which was accepted by the court.

☒ Was found guilty on count(s) 1-4 of the Indictment following trial by jury which concluded on January 10, 2019.
ACCORDINGLY, the Court has adjudicated that the defendant is guilty of the following offense(s):

Date Offense
Concluded

Title / Section and Nature of Offense

Count

FOR CONVICTION OFFENSE(S) DETAIL - SEE COUNTS OF CONVICTION ON PAGE 2
The defendant is sentenced as provided in pages 2 through 8 of this Judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s)

(Is) (are) dismissed on the motion of the United States.

IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the Court and the United States Attorney of any material change in the
defendant's economic circumstances.

7/30/2020

Date of Imposition of Judgment

David J. Hale, Judge
United States District Court
August 3, 2020

EXHIBIT D
Appx-029

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 2 of 8 PageID #: 2334
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 1A
Judgment-Page 2 of 8

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

COUNTS OF CONVICTION

Title / Section and Nature of Offense

Date Offense
Concluded

Count

18:922(g)(1), 924(a)(2), 924(e)(1) FELON IN POSSESSION OF FIREARM AND AMMUNITION

11/11/2015

1

21:841(a)(1) and (b)(1)(D) POSSESSION WITH INTENT TO DISTRIBUTE MARIJUANA

11/11/2015

2

18:924(c)(1)(A) POSSESSION OF FIREARM IN FURTHERANCE OF DRUG TRAFFICKING
CRIME

11/11/2015

3

21:841(a)(1) and (b)(1)(C) POSSESSION WITH INTENT TO DISTRIBUTE COCAINE

11/12/2015

4

Appx-030

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 3 of 8 PageID #: 2335
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 2 - Imprisonment

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

Judgment-Page 3 of 8

IMPRISONMENT

The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of 60
months as to Count 2 and 180 months as to Counts 1 and 4 to run concurrently with each other, and 60 months as to Count 3
to be served consecutively to the term imposed on Counts 1, 2, and 4 for a total term of 240 months imprisonment.

☒ The Court recommends to the Bureau of Prisons that the defendant’s health condition be evaluated for appropriate
placement.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

A.M. / P.M. on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ Before 2:00 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.
☐ The defendant shall continue under the terms and conditions of his/her present bond pending surrender to the institution.

RETURN

I have executed this judgment as follows:

Defendant delivered on
at

To
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By

Appx-031

Deputy U.S. Marshal

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 4 of 8 PageID #: 2336
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3 - Supervised Release

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

Judgment-Page 4 of 8

SUPERVISED RELEASE

Upon release from imprisonment, the defendant shall be on supervised release for a term of 3 years as to Count 4 and 5 years as to
each of Counts 1-3 to run concurrently for a total of 5 years.

MANDATORY CONDITIONS
1.
2.
3.

5.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse.
☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
☒ You must cooperate in the collection of DNA as directed by the probation officer.

6.

☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et seq.)

4.

7.

as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which you reside,
work, are a student, or were convicted of a qualifying offense.
☐ You must participate in an approved program for domestic violence.

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Appx-032

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 5 of 8 PageID #: 2337
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3A - Supervised Release
Judgment-Page 5 of 8

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

STANDARD CONDITIONS OF SUPERVISION

As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your release from
imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and when you
must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the court or
the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living arrangements
(such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying the probation officer in
advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to take any
items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from doing so. If
you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses you from doing so. If you
plan to change where you work or anything about your work (such as your position or your job responsibilities), you must notify the probation
officer at least 10 days before the change. If notifying the probation officer at least 10 days in advance is not possible due to unanticipated
circumstances, you must notify the probation officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been convicted of a
felony, you must not knowingly communicate or interact with that person without first getting the permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was designed,
or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without first getting
the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may require you to
notify the person about the risk and you must comply with that instruction. The probation officer may contact the person and confirm that you
have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

Appx-033

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 6 of 8 PageID #: 2338
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 3B - Supervised Release
Judgment-Page 6 of 8

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

SPECIAL CONDITIONS OF SUPERVISION

14. The defendant shall submit to testing to determine if he/she has used a prohibited substance. The defendant shall contribute to the Probation
Office’s cost of services rendered based upon his/her ability to pay as it relates to the court approved sliding fee scale. The defendant must not
attempt to obstruct or tamper with testing methods.
15. The defendant shall submit his or her person, property, house, residence, vehicle, papers, computers [as defined in 18 USC 1030(e)(1)], other
electronic communications or data storage devices or media, or office to a search conducted by the United States Probation Officer. Failure to
submit to a search may be grounds for revocation of release. The defendant shall warn any other occupants that the premises may be subject to
searches pursuant to this condition. An officer may conduct a search pursuant to this condition only when reasonable suspicion exists that the
defendant has violated a condition of their release and that the areas to be searched may contain evidence of this violation. Any search must be
conducted at a reasonable time and in a reasonable manner.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Upon a finding of a violation of probation or supervised release, I understand that the Court may (1) revoke supervision, (2) extend the
term of supervision and/or (3) modify the conditions of supervision.
These conditions have been read to me. I fully understand the conditions and have been provided a copy of them.
___________________________________
Defendant

_________________________
Date

___________________________________
U.S. Probation Officer/Designated Witness

_________________________
Date

Appx-034

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 7 of 8 PageID #: 2339
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 5 - Criminal Cometary Penalties
Judgment-Page 7 of 8

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

CRIMINAL MONETARY PENALTIES

The defendant shall pay the following total criminal monetary penalties in accordance with the schedule of payments set forth
on Sheet 5, Part B.

Totals:

Assessment
$ 400.00

Fine

Restitution

☒ The fine and the costs of investigation, prosecution, incarceration and supervision are waived due to the defendant's
inability to pay.

☐ The determination of restitution is deferred until
entered after such determination.

. An Amended Judgment in a Criminal Case (AO 245C) will be

☒ Restitution is not an issue in this case.
☐ The defendant shall make restitution (including community restitution) to the following payees in the amount listed below.
Criminal debt may be paid by cash, check or money order or may be paid online at www.kywd.uscourts.gov (See Online
Payments for Criminal Debt). If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. §
3664(I), all nonfederal victims must be paid in full prior to the United States receiving payment.
Priority Order
** Total
Amount of
Or Percentage
Name of Payee
Amount of Loss
Restitution Ordered
Of Payment

☐ If applicable, restitution amount ordered pursuant to plea agreement. . . . . $
☐ The defendant shall pay interest on any fine of more than $2,500, unless the fine is paid in full before the fifteenth day after the
date of judgment, pursuant to 18 U.S.C. 3612(f). All of the payment options on Sheet 5, Part B may be Subject to penalties for
default and delinquency pursuant to 18 U.S.C. 3612(g).

☐ The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ The interest requirement is waived for the
☐ The interest requirement for the

☐ Fine and/or

☐ Fine and/or

☐ Restitution

☐ Restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for
offenses committed on or after September 13, 1994 but before April 23, 1996.

Appx-035

Case 3:17-cr-00037-DJH Document 242 Filed 08/04/20 Page 8 of 8 PageID #: 2340
USDC KYWD 245B (Rev. 02/16) Judgment in a Criminal Case Sheet 6 - Schedule of Payments
Judgment-Page 8 of 8

DEFENDANT: Brewer, Cherosco
CASE NUMBER: 3:17-CR-37-1-DJH

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties shall be due as follows:
A

☐ Lump sum payment of $
Due immediately, balance due
☐ not later than
, or
☐ in accordance with C, D, or E below); or

B

☐ Payment to begin immediately (may be combined with C, D, or E below); or

C

☐ Payment in

D

☐ Payment in

E

☒ Special instructions regarding the payment of criminal monetary penalties:

(E.g. equal, weekly, monthly, quarterly) installments of $
Over a period of
(E.g. months or years) year(s) to commence
(E.g., 30 or 60 days)
after
The date of this judgment, or
(E.g. equal, weekly, monthly, quarterly) installments of $
Over a period of
(E.g. months or years) year(s) to commence
(E.g., 30 or 60 days)
after
Release from imprisonment to a term of supervision; or

Any balance of criminal monetary penalties owed upon incarceration shall be paid in quarterly installments of at
least $25 based on earnings from an institution job and/or community resources (other than Federal Prison
Industries), or quarterly installments of at least $60 based on earnings from a job in Federal Prison Industries
and/or community resources, during the period of incarceration to commence upon arrival at the designated
facility.
Upon commencement of the term of supervised release, the probation officer shall review your financial
circumstances and recommend a payment schedule on any outstanding balance for approval by the court. Within
the first 60 days of release, the probation officer shall submit a recommendation to the court for a payment
schedule, for which the court shall retain final approval.
Unless the court has expressly ordered otherwise in the special instructions above, if this judgment imposes a period of
imprisonment, payment of criminal monetary penalties shall be due during the period of imprisonment. All criminal monetary
penalties, except those payments made through the Federal Bureau of Prisons Inmate Financial Responsibility Program, are
to be made to the United States District Court, Gene Snyder Courthouse, 601 West Broadway, Suite 106, Louisville, KY 40202,
unless otherwise directed by the Court, the Probation Officer, or the United States Attorney.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
Defendant and Co-Defendant Names and Case Numbers including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒ The defendant shall forfeit the defendant's interest in the following property to the United States: Forfeiture shall be
addressed by further order of the Court.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5)
community restitution, (6) fine interest, (7) penalties, and (8) costs, including cost of prosecution and court costs.

Appx-036

